                            National Archives and Records Administration
                                                                                                      860] Adelphi Road
                                                                                     College Park, Maryland 20740-600]


    Date 	      April23,2010
   Reply to

   Attn of 	    Office ofInspector General (OIG)

   Subject 	    Management Letter No. 10-10, Concerns with the Electronic Records Archives System's
                Ability to Conduct Full-Text Searches

   To 	         David Ferriero, Archivist of the United States (N)

                The purpose of this management letter is to define our concerns as to the capacity and
                capability of the Electronic Records Archives (ERA) system to search the records which it
                will eventually store. The ERA Requirements Document (RD) dated October 17,2005
                defines the systems core requirements, and RD Sections 19 and 20 (attached) focus on the
               search and access capabilities of ERA. Based upon our interpretation, the RD calls for a
               system which at Final Operating Capability (FOC) would ingest, preserve and facilitate
               authorized user search, retrieval and access to all data which presided in each record
               maintained in ERA. For example, we believe ERA should be able to search the full text of
               an email's body, not just the subject line or delivery addresses. It has come to our attention
               NARA program officials may decide to limit ERA's searching functions short of full-text
               searches 1 due to the costs involved. With FOe looming in 2012, NARA has yet to make this
               crucial decision, nor have they alerted appropriators of the resource issues involved.

               The ERA Program Director was asked if ERA users would have full-text search capability
               for all data ingested into ERA, and if that was the case, did NARA have the equipment and
               funding necessary either in place or requested to accomplish it. In response the ERA
               Program Director stated:

                      Full text search is a capability that is built-in with the Vivisimo Search
                      Engine, the search engine selected for the ERA. The question is does it make
                     sense to do full text searching on every record stored in ERA? Even if limited
                     to a specific data type, such as text, this would be very resource intensive both
                     in terms of the size of the index and in compute cycles to generate and
                     maintain the indexes and to execute queries. This is a policy decision that will
                     be made by NARA. According to our engineering staff, indexing for full text
                     searching requires about a 3x increase in storage. These are implementation
                     questions that will be answered during the next 8-12 months as the analysis,
                     design and development of the production public access piece of ERA
                     progresses.




I A search tlolat compares every word in a document, as opposed to searching an abstract or a set of keywords ass.ociated
with the document.
 When directly asked ifNARA did decide to do full text searching, was the funding already
 built into the current contract increment's development cost (increment 3) or would funding
 have to be built into the next increment (increment 4), the ERA Program Director stated:

        The funding would come from increment 4 and/or increment 5. Beyond FOe,
        as the archive continues to grow, it will be necessary to add more storage as
        necessary.

 Thus our understanding is that, while the ERA system will employ a publically-available
 search engine which should have full search capability, at this time no determination has
been made as to whether this search engine will be able to actually search all of ERA's data.
Rather, this overarching question is still on the table for perhaps another full year even
though we have communicated to our stakeholders that FOe will arrive in March 2012. If
the decision is made to enable full-text search and access capabilities, NARA would require
significant additional funding and resources prior to FOe. NARA officials were unable to
provide the OIG with any funding requests in this regard. This decision may have an impact
on funding for increments 4 and 5, as well as out years, or may even result in the need for a
follow-on contract. Lacking additional funding streams, per NARA's own definition, we
would be unable to support full-text search of our electronic holdings. Rather, ERA users
would be faced with the prospect oflimited search capability and diminished capacity to
navigate through NARA's vast holdings.

With FOe and the end of the ERA development contract looming, NARA management 

needs to make this critical decision in a timely manner and communicate it to our 

stakeholders. If you have any questions, or require additional information, please do not 

hesitate to contact me. 




///£"/~">
    .~, / .~---1/.
Paul Brachfeld
Inspector General


cc: NH (M. Morphy)

Attachment: 

ERA Requirements Document excerpt, dated October 17, 2005, 4 pages 

                                                                            Attachment 1


     ERA Requirements Document Sections 19 and 20 Related to Search and Access Capabilities


    ERA19 The system shall provide the capability to search the assets it contains
    ERA 19.1 The system shall provide the capability for the user to select the characteristics of a 

    search against the assets it contains 

    ERA 19.1.1 The system shall provide the capability for the user to enter the criteria for the 

    search 

    ERA 19.1.2 The system shall provide the capability to search by geographic information 

    ERA 19.1.3 The system shall provide the capability to search by subject 

    ERA 19.1.4 The system shall provide the capability to search by time period 

    ERA 19.1.5 The system shall provide the capability to search by accession number 

   ERA 19.1.6 The system shall provide the capability to search by transferring entity 

   ERA 19.1.7 The system shall provide the capability to search by government function 

   ERA 19.1.8 The system shall provide the capability to search by government line of business 

   ERA19.1.9 The system shall provide the capability to search by asset type 

   ERA 19.1.10 The system shall provide the capability to search by geospatial identifiers 

   ERA 19.1.11 The system shall provide the capability to search by any element defined in the 

   asset's template
  ERA 19.1.12 The system shall provide the capability to search by media type 

  ERA 19.1.13 The system shall provide the capability to search by record type 

  ERA 19.1.14 The system shall provide the capability to search descriptions by description 

  unique identifier 

  ERA 19.1.15 The system shall provide the capability to search by title 

  ERAI9.1.16 The system shall provide the capability for keyword searching 

  ERA 19.1.17 The system shall provide the capability for exact phrase searching 

  ERA19.1.18 The system shall provide the capability for concept-based searching 

  ERA19.l.I9 The system shall provide the capability for Boolean searching 

 ERA 19.1.20 The system shall provide the capability for proximity searching 

 ERA 19.1.21 The system shall provide the capability to search based on the frequency of access 

 to assets by other researchers doing similar searches 

 ERA19.1.22 The system shall provide the capability for automated question-and-answer 

 searching based on searches performed frequently 

 ERA 19.1.23 The system shall provide the capability to search only for descriptions that refer to 

 electronic records
 ERA 19.1.24 The system shall provide the capability to use wildcard characters in searches
ERA 19.1.25 The system shall provide the capability for searching records lifecycIe data
ERA 19.1.26 The system shall provide the capability for searching authority sources for people
ERA 19.1.27 The system shall provide the capability for searching authority sources for
organizations
ERA 19.1.28 The system shall provide the capability for the use of designated "stop words" that
are disregarded during searches
ERA 19.1.29 The system shall provide the capability to search by transfer
ERA 19.2 The system shall provide the capability to search for assets based on their contents
ERA 19.3 The system shall provide the capability to search through hierarchies of information
      ERA19.3.1 The system shall provide the capability to navigate from a description to an
      individual electronic record
      ERA 19.3.2 The system shall provide the capability to navigate from an individual electronic
      record to an associated description
      ERA 19.3.3 The system shall provide the capability to navigate from a description to a set of
      electronic records
     ERA 19.3.4 The system shall provide the capability to navigate from a set of electronic records
     to a description of the set
     ERAI9.3.5 The system shall provide the capability to navigate through all levels of records
     lifecycle data while searching
     ERA 19.3.6 The system shall provide the capability to navigate through all levels of sets of
     records while searching
     ERAI9.3.7 The system shall provide the capability to navigate from a description to a
     description of the description's creator
    ERA19.4 The system shall provide NARA-created default searches
    ERAI9.4.1 The system shall provide the capability for users to select a NARA default search
    from among available searches
    ERA 19.4.2 The system shall run the user-selected NARA default search
    ERA19.5 The system shall provide the capability for the user to select the search complexity
    level, from simple single-variable searches to multi-variable complex searches
   ERA19.6 The system shall provide the capability to control search run times
   ERAI9.6.1 The system shall limit search run times in a pre-emptive manner
   ERA19.6.2 The system shall provide the capability for users to adjust search run time limits
   ERA19.7 The system shall provide information to the user while the search is in progress
   ERA19.7.1 The system shall provide a search progress indicator
   ERAI9.7.2 The system shall display the search parameters selected by the user
   ERA19.7.3 The system shall provide an estimate to the user of how long the search will take to
   execute
   ERA19.7.4 The system shall notify the user when the search is complete 

   ERA19.8 The system shall present the search results set to the user 

  ERAI9.8.1 The system shall display a search results set that includes all assets meeting the 

  search criteria
  ERA 19.8.2 The system shall display an explanation for the reason for withholding assets
  ERA 19.8.3 The system shall exclude from display assets whose existence cannot be disclosed to
  the requesting user
 ERA 19.8.4 The system shall display the total number of results in the result set returned by the 

 search 

 ERA 19.8.5 The system shall provide the capability for the user to select the quantity of search 

 results to be presented in the results set
 ERA 19.8.6 The system shall provide the capability for users to select the order in which the
 result set is presented
 ERA 19.8.7 The system shall provide the capability to rank the results of the search by relevance
ERA 19.8.8 The system shall present the search results set at user-selectable levels of detail
ERA 19.8.9 The system shall indicate different versions of a record included in the search result
set
ERA 19.9 The system shall provide the capability for a user to refine a search
ERA 19.9.1 The system shall provide the capability to search within the result set returned by the
initial search
ERA 19.9.1.1 The system shall provide a "more like this" capability to refine a search for more


                                                     4

      assets similar to those returned by the search
      ERA 19.9.1.2 The system shall provide the capability to refine a search using any search criteria
      available in the system
      ERA 19.9.2 The system shall provide the capability to stop a search in progress in order to refine
      the search
      ERA 19.10 The system shall provide the capability for the user to select the assets they wish to
     access from among the search results set
     ERA 19.11 The system shall provide the capability to save a search
     ERA 19.11.1 The system shall provide the capability forthe user to select a saved search from
     their saved searches
     ERAI9.11.2 The system shall provide the capability to run saved searches
     ERA 19.12 The system shall provide the capability for users to store results sets over time 

    ERA 19.12.1 The system shall provide the capability to store search results 

    ERA 19.12.2 The system shall provide the capability to save selected portions of results sets 

    ERAI9.12.3 The system shall maintain a search results set for a specified period of time 

    ERA 19.13 The system shall manage mediated searches 

    ERA 19.13.1 The system shall provide the capability to request a mediated search 

    ERAI9.13.2 The system shall provide the capability for mediated searchers to dialog with 

    search requestors about their mediated search 

    ERAI9.13.3 The system shall provide the capability to manage mediated search request 

   responses
   ERA 19.13 A The system shall provide the capability to prioritize mediated searches
   ERA20 The system shall provide access to the assets it contains
   ERA20.1 The system shall provide the capability to electronically present all electronic record
   types
   ERA20.2 The system shall provide the capability for users to request copies of assets 

   ERA20.3 The system shall provide the capability to output copies of all assets 

   ERA20.3.1 The system shall provide the capability to output all assets to media 

  ERA20.3.1.1 The system shall print address labels for media orders 

  ERA20.3.1.2 The system shall print packing lists for media orders 

  ERA20.3.2 The system shall provide the capability to print all printable assets 

  ERA2004 The system shall provide access to assets independently of the hardware with which 

  they were created 

  ERA2004.l The system shall provide the capability to output assets independently of the
  hardware with which they were created 

 ERA2004.2 The system shall provide the capability to electronically present assets 

 independently of the hardware with which they were created 

 ERA20.S The system sha11 provide access to assets independently of the software with which
 they were created 

 ERA20.S.1 The system shall provide the capability to output assets independently of the 

software with which they were created 

ERA20.S.2 The system shall provide the capability to electronically present assets
independently of the software with which they were created
ERA20.6 The system shall provide the capability to access an entire electronic record
ERA20.7 The system shall provide the capability to access a set of electronic records
ERA20.8 The system shall provide the capability to access a portion of an electronic record
ERA20.9 The system shall provide the capability to access all digital components of an
electronic record
ERA20.10 The system shall provide the capability to output assets in fonnats selected by the
  user from available choices
  ERA20.1 0.1 The system shall provide the capability for users to select the output format of
 selected assets from among available formats
 ERA20.10.2 The system shall output certified copies of electronic records in formats selectable
 by the user from available choices
 ERA20.10.3 The system shall output certified copies of electronic records on media selectable
 by the user from available choices
 ERA20.! 0.4 The system shall provide the capability to output selected asset formats via
 telecommunications
 ERA20.11 The system shall maintain the authenticity of an electronic record during access
 ERA20.l1.1 The system shall maintain electronic record content during access
 ERA20.11.2 The system shall maintain electronic record specified behavior during access
ERA20.11.3 The system shall maintain electronic record context during access
ERA20.ll.4 The system shall maintain electronic record structure during access
ERA20.II.S The system shall maintain electronic record presentation during access
ERA20.11.6 The system shall provide the capability to present digital components of electronic
records individually
ERA20.11.7 The system shall provide the capability to output digital components of electronic
records individually
ERA20.11.8 The system shall provide the capability to present electronic records composed of
multiple digital components
ERA20.11.9 The system shall provide the capability to output electronic records composed of
multiple digital components
